                         AUDIT OF SBA’S ADMINISTRATION
                         OF THE MBELDEF COSPONSORSHIP

                             AUDIT REPORT NUMBER 0-30

                                  SEPTEMBER 30, 2000




This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office of
Inspector General.
        AUDIT OF SBA’S ADMINISTRATION OF THE MBELDEF COSPONSORSHIP

                                                    TABLE OF CONTENTS

                                                                                                                                         Page

SUMMARY .................................................................................................................................... i

INTRODUCTION

          A. Background ...................................................................................................................1

          B. Audit Objective and Scope ...........................................................................................2

RESULTS OF AUDIT

          1. SBA Did Not Determine Its Authority to Disburse Funds
             to a Cosponsor .................................................................................................. 3

          2. SBA Did Not Adequately Safeguard the Government’s
             Interests In This Cosponsorship ....................................................................................6

          3. SBA Lacked Controls Over Assuring Proper Expenditure of
             Appropriated Funds ....................................................................................................11

          4. SBA Did Not Take Appropriate Action When Significant
             Problems Arose With the Cosponsorship Agreement .......................................... 13

          5. SBA Did Not Ensure MBELDEF Provided All Invoices .......................................... 15

APPENDIX

          A. Audit Report Distribution
                              U.S. Small Business Administration
                                  Office of Inspector General
                                    Washington, DC 20416


                                                                     AUDIT REPORT
                                                             Issue Date: September 30, 2000
                                                             Number: 0-30


TO:            Kerry L. Kirkland, Associate Deputy Administrator for
                 Government Contracting & Minority Enterprise Development

               John M. Bebris, Acting Associate Administrator for Business Initiatives

               David R. Kohler, Deputy General Counsel



FROM:          Robert G. Seabrooks, Assistant Inspector General
                for Auditing

SUBJECT:       Audit of SBA’s Administration of the MBELDEF Cosponsorship


       Attached is a copy of the subject audit report. The report contains five findings with seven
recommendations. The findings in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendations are subject to review and
implementation of corrective action in accordance with existing Agency procedures for audit
follow-up and resolution.

       Please provide your management decision for each recommendation made to you within 30
days from the date of this report using the attached SBA Forms1824, Recommendation Action
Sheet.

       Any questions or discussion of the issues contained in the report should be directed to
Robert Hultberg, Director, Business Development Programs Group, at (202) 205-7204.


Attachments
                                     SUMMARY

        The purpose of this audit was to determine whether SBA properly managed its
cosponsorship agreement with MBELDEF for its Small Disadvantaged Business (SDB)
program introduction and outreach tour. The SDB program provides procurement
benefits to small disadvantaged businesses bidding on Federal contracts by giving them
up to a 10 percent price preference on their bids. While the SDB program started out as a
self-certification program, SBA began certifying SDBs in 1998. In September 1998,
SBA entered into a cosponsorship agreement with the Minority Business Enterprise
Legal Defense and Education Fund, Inc. (MBELDEF) to conduct a nationwide tour to
explain details of various programs, including the SBA certification process.

       We found that SBA did not take appropriate actions both before and after signing
the cosponsorship agreement (the cosponsorship), which committed SBA to disburse up
to $900,000 in government funds to MBELDEF. Deficiencies included:

   •   Entering into the cosponsorship without determining SBA’s authority to disburse
       government funds through cosponsorship agreements;
   •   Entering into the cosponsorship without ensuring adequate safeguards over the
       Government’s interests;
   •   Lacking controls to assure appropriated funds were properly spent;
   •   Failing to raise known significant problems with MBELDEF’s handling of the
       cosponsorship to the appropriate levels; and
   •   Failing to enforce the terms of the cosponsorship in reviewing MBELDEF
       claimed expenses.

       SBA management officials provided comments to a draft of this report during
meetings. They also stated that they had insufficient time to provide a full response.
They agreed with five recommendations and generally agreed with two
recommendations. A summary of their comments and our analysis are contained at the
end of each finding.




                                            i
                                    INTRODUCTION

A. BACKGROUND

        The Small Disadvantaged Business (SDB) program provides Federal procurement
benefits to small disadvantaged businesses bidding on Federal contracts by giving them
up to 10 percent price preference on their bids. Until 1998, companies self-certified that
they were small and disadvantaged prior to bidding on federal contracts. However, after
the Supreme Court’s decision in Adarand Constructors, Inc. v. Pena, 515 U.S. 200
(1995), the Department of Justice (DOJ) evaluated all Federal procurement programs that
used race-based criteria. Based on this review, DOJ recommended that small
disadvantaged businesses be pre-certified by the government prior to receiving Federal
contracts in order to withstand court challenges to the program.

         SBA established the Small Disadvantaged Business Certification and Eligibility
Office within Government Contracting & Minority Enterprise Development (GC/MED)
in 1998 to certify SDBs. Details of the new SBA certification process were explained in
a nationwide tour of 2-day training sessions in 13 cities. On September 25, 1998, SBA
entered into a cosponsorship agreement (Authorization No. 98-6360-71) with the
Minority Business Enterprise Legal Defense and Education Fund, Inc. (MBELDEF) to
conduct the nationwide tour. According to Standard Operating Procedure (SOP) 90 75 2
(cosponsorship SOP), a cosponsorship is an activity, event, or initiative that is planned or
conducted jointly by SBA and one or more cosponsors, or promoted, publicized, or
identified with SBA through use of the SBA Logo or Seal. The Office of Business
Initiatives (BI) is responsible for overseeing cosponsorship agreements. A section of the
Small Business Act (15 U.S.C. § 637(b)(1)(A)) gives SBA statutory authority to enter
into cosponsorships, in conjunction with other entities, for a wide variety of training and
counseling programs to assist small business.

        MBELDEF was founded in 1980 as a non-profit organization dedicated to
addressing issues affecting the class interests of minority business enterprises. It acted as
a national, public interest law firm and membership organization.

        Under the terms of the cosponsorship agreement, MBELDEF was responsible for
general administration as well as executing and overseeing various contracts for the
program introduction and outreach tour. Activities included curriculum development,
marketing, printing of workshop material, workshop logistics, and on-site services.
Under the terms of this agreement, SBA was to pay MBELDEF up to $900,000
($600,000 was to come from a pool of funds SBA received from other Federal agencies
for certifying SDBs and the remaining $300,000 was transferred from the Department of
Defense specifically for this cosponsorship). SBA provided MBELDEF an initial
advance of $368,630. According to SBA officials, MBELDEF did not participate in the
last 4 conferences, while MBELDEF acknowledged it had no significant role in the last 3
conferences.




                                              1
B. AUDIT OBJECTIVE AND SCOPE

       The audit objective was to determine whether SBA properly managed the
cosponsorship agreement with MBELDEF for the SDB program introduction and
outreach tour. Our audit covered activities relating to the cosponsorship agreement from
August, 1998 through May, 1999. SBA disbursed its last payment to MBELDEF on this
cosponsorship on May 25, 1999.

       We audited all available invoices for which MBELDEF received payment under
the cosponsorship agreement. We reviewed SBA and MBELDEF’s records supporting
payments made to MBELDEF by SBA, the information SBA used to reimburse
MBELDEF, relevant documentation concerning this cosponsorship agreement and other
procurement methods, e.g., SBA’s Standard Operating Procedures on cosponsorship
agreements, the Federal Acquisition Regulation, the Federal Grant and Cooperative
Agreement Act, OMB Circulars, and legal opinions concerning cosponsorship
agreements. Additionally, we interviewed MBELDEF’s President, MBELDEF’s
accountant and SBA officials in the following offices: Business Initiatives (BI),
Government Contracting & Minority Enterprise Development (GC/MED), General
Counsel (OGC), and Administration.

        MBELDEF did not provide all the requested documents, and SBA did not
maintain the necessary documentation for us to determine the total costs expended by
SBA for the cosponsorship. Therefore, we were unable to satisfy ourselves with respect
to the total amount for these items. We were, however, able to address the audit
objectives by identifying problems with the management of the cosponsorship.

       The fieldwork was conducted from May 22, 2000 to September 15, 2000. The
audit was conducted in accordance with Government Auditing Standards.




                                           2
                                   RESULTS OF AUDIT

Finding 1: SBA Did Not Determine Its Authority to Disburse Funds to a Cosponsor

        SBA disbursed funds through this cosponsorship without determining whether it
had the required authority and without incorporating the requirements of Circular A-110,
“Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals and Other Non-Profit Organizations.” Under generally
accepted rules of statutory construction, when a law is not clear, deference is given to the
implementing agency’s interpretation of the law. The statutory language giving SBA the
authority to enter into cosponsorships does not include specific language permitting SBA
to disburse Federal funds through a cosponsorship. OGC has not issued an opinion on
whether SBA has the authority to disburse funds to a non-government cosponsor through
a cosponsorship.

        The statute, 15 U.S.C. § 637(b)(1)(A) provides that the Administration is
empowered to provide technical and managerial aids to small-business concerns. These
aids include cooperating with and advising institutions and other Federal and State
agencies and any other activities as are deemed appropriate by the Administration. The
statutory language on cosponsorships, however, contains no express authorization for
SBA to use cosponsorships as a vehicle for spending appropriated funds. According to
Senate Report 98-438, which accompanied the Act, cosponsored training is a highly
leveraged program, utilizing minimum budget funds from the Agency. Also, the
Agency’s cosponsorship Standard Operating Procedure (SOP 90 75 2, dated August 7,
1995), does not authorize SBA to disburse funds through a cosponsorship.

        SBA’s own internal documents contemplate that a contract, grant, or cooperative
agreement would be used when disbursing Federal funds in conjunction with a
cosponsorship. On June 8, 1988, SBA’s General Counsel issued a memorandum entitled
“Procedures for Reviewing and Approving Proposed Cosponsorship Activities.” The
memorandum (not a formal General Counsel opinion) contains an enclosure entitled
“Legal Issues Outline for Cosponsorship Activities,” and “identifies areas that should be
considered in assessing the appropriateness of proposed cosponsored activities, and the
manner in which they are proposed to be conducted.” Disbursing funds directly to a
cosponsor for services is not one of the enumerated methods in the memorandum for
providing financial support to a cosponsored activity. Instead, the memorandum asks,
“What mechanism is being used to disburse the funds, e.g., contract, grant or cooperative
agreement?” While we do not believe this administrative checklist establishes or limits
legal authority, it demonstrates that the cosponsorship statute was not interpreted as
containing a separate, new grant of authority to SBA to disburse funds.

        OMB Circular A-110 applies to all agreements between Federal agencies
and non-profit organizations, such as MBELDEF. Paragraph 5 states in part, that:
“Federal agencies responsible for awarding and administering grants to and other
agreements with organizations . . . shall adopt the language in the Circular unless
different provisions are required by Federal statute or are approved by OMB.”



                                             3
The Small Business Act does not contain different provisions and we are unaware
of OMB approval to exempt SBA from these requirements. SBA did not adopt
the language in the Circular for the MBELDEF cosponsorship agreement.

      SBA ultimately paid its cosponsor MBELDEF $646,610 of the budgeted
$900,000 in Federal funds under the authority of this cosponsorship agreement.


                                RECOMMENDATIONS

We recommend that the:

1A.    Deputy General Counsel issue an opinion regarding the legality of SBA
       disbursing funds under a cosponsorship to a cosponsor absent of using authorized
       contract, grant or cooperative agreement procedures; and

1B.    Associate Administrator for Business Initiatives insert a clause in cosponsorship
       agreements where SBA is disbursing funds to the cosponsor prohibiting
       disbursement unless and until he receives a signed legal opinion stating that SBA
       has the authority to disburse funds to the cosponsor.

SBA Management’s Comments

       Management officials agreed with the two recommendations contained in this
finding. They disagreed that OMB Circular A-110 is applicable to this kind of
agreement, but stated they “may elect” to incorporate appropriate OMB Circular
provisions into future cosponsorships. They stated that SBA had used cosponsorships for
many years to commit resources either through cash outlays for postage expenses or
dedication of agency staff and non-cash resources. Finally, they commented that the
checklist contained in SBA’s General Counsel memorandum merely listed examples of
funding mechanisms.

OIG Evaluation of Management’s Comments

        Management gave no reason why they believe that OMB Circular A-110 is not
applicable to this cosponsorship, and as such we have no reason to change our conclusion
on this matter. SBA signed a cosponsorship agreement with MBELDEF, a non-profit
organization, and as such, OMB Circular A-110 “Uniform Administrative Requirements
for Grants and Agreements with Institutions of Higher Education, Hospitals and Other
Non-Profit Organizations” applies. (bold added). We do not dispute that SBA had
disbursed funds to cosponsors in the past. These past actions, however, do not justify
disbursing funds through a cosponsorship agreement without determining whether it had
the required authority, especially since the statutory language giving SBA the authority to
enter into cosponsorships does not include specific language permitting SBA to disburse
Federal funds through a cosponsorship. Lastly, the 1988 Checklist is not necessarily




                                            4
binding, but in our view, it is evidence that SBA management did not historically
interpret the cosponsorship statute as constituting separate spending authority.




                                            5
Finding 2: SBA Did Not Adequately Safeguard the Government’s Interests In This
          Cosponsorship

        SBA entered into a cosponsorship agreement to disburse up to $900,000 to
MBELDEF, without ensuring that the government’s interests were safeguarded. While
the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and OMB Circular A-
123, “Management Accountability and Control” both require SBA to take appropriate
measures to ensure that funds are safeguarded against waste, fraud, mismanagement or
misappropriation, the cosponsorship agreement did not include these safeguards and the
cosponsorship SOP did not require them either. MBELDEF ultimately did not complete
its responsibilities under the cosponsorship, and the cosponsorship has ambiguities
concerning SBA’s legal recourse.

        SBA agreed to pay MBELDEF up to $900,000 in appropriated funds without
evaluating whether MBELDEF could do the tasks it agreed to, or making provisions in
the agreement to ensure that expenditures were reasonable and performance by
MBELDEF was adequate. When entering into the cosponsorship, SBA did not first
determine that:

   •   MBELDEF was capable of completing its responsibilities under the
       cosponsorship;
   •   MBELDEF had the financial resources within the organization to complete the
       cosponsorship; and
   •   The government was paying a fair and reasonable price for what it was obtaining.

The cosponsorship did not include:

   •   A requirement that SBA would pay MBELDEF only for allocable, allowable and
       reasonable expenses;
   •   Penalties against MBELDEF should it not complete its responsibilities; and
   •   Internal controls to account for the fees MBELDEF collected under the
       cosponsorship, which were to be used before SBA funds.

Additionally, the SBA program official responsible for the cosponsorship was not trained
to ensure that the expenditures and performance were reasonable.

       By excluding these safeguards, SBA did not adhere to FMFIA, OMB Circular A-
123, “Management Accountability and Control,” or OMB Circular A-110. FMFIA and
OMB Circular A-123 require executive agencies to take the appropriate measure to
ensure that funds are safeguarded against waste, fraud, mismanagement or
misappropriation. OMB Circular A-110 contains procedures to assure reasonable costs
and proper accountability.

        SBA entered into a cosponsorship because the ADA for GC/MED specifically
wanted MBELDEF to do the work. SBA determined that MBELDEF could not qualify
for a contract or grant but could qualify for a cosponsorship. The cosponsorship SOP did


                                           6
not require the safeguards necessary to protect spending government funds. While most
of these safeguards would have been incorporated into a contract or a 7(j) technical
assistance grant to MBELDEF, SBA officials stated MBELDEF could not have received
either of these for this project. According to an SBA official, SBA could not award this
to MBELDEF through a contract because MBELDEF did not have expertise in logistical
planning. SBA officials stated that SBA could not award MBELDEF a 7(j) grant because
of reprogramming limitations that could not be overcome.

        The following are examples of problems with the MBELDEF cosponsorship:

    •   SBA had to complete MBELDEF’s cosponsorship responsibilities because
        MBELDEF did not complete them. According to MBELDEF’s President, SBA
        completed the last 3 presentations because MBELDEF did not have the funds
        needed to pay the vendors and speakers for the events. Had SBA checked
        MBELDEF’s financial condition and past performance before awarding the
        cosponsorship, it would have been apparent that MBELDEF had financial
        limitations and poor performance. [ FOIA Exemption 4 ] Furthermore,
        MBELDEF’s 1997 track record was poor. MBELDEF only completed 3 of the 5
        studies it contracted to do as a subcontractor for a Federal Government award.
        Further, an SBA official stated that MBELDEF did not have expertise in logistical
        planning to receive this project as a contract.

    •   MBELDEF did not appear to use some of the Government’s money in a prudent
        and reasonable manner, but the cosponsorship did not contain provisions for
        spending funds in a reasonable and prudent manner. Because the cosponsorship
        did not require the expenses to be reasonable, MBELDEF had no restrictions on
        the use of funds, and little incentive to be prudent or reasonable in incurring
        expenses. Potentially unreasonable charges 1 included:

           - $74,114 in printing charges to one company for an average of $9,624 per site.
             For one of the sites, another printing company only charged $5,000 for a
             similar project, about one-half the average of the other company. The first
             company may have been charging higher prices for “rush” jobs. This would
             have occurred if MBELDEF did not provide the company the materials with
             enough lead-time. MBELDEF’s accountant stated that MBELDEF used the
             first printing company because they did not require immediate payment.

           - $46,344 to pay for a project manager. The cosponsorship required MBELDEF
             to provide, at its own expense, a project officer and project director. The
             duties of all 3 individuals were not clear and may have overlapped. SBA paid
             for the project manager and MBELDEF failed to provide all the staff time
             promised for the project officer and project director.


1
 Lack of clear documentation on the purpose and basis for invoices made a full assessment difficult.
Because SBA does not have a clear basis to obtain refunds, we did not assess the reasonableness of every
expense paid. Had we done so, we believe other expenses would have been unreasonable.


                                                    7
- $2,004 in long distance phone charges made from hotel rooms. Over a five-
  day period, an MBELDEF contractor charged $322 or an average of over $64
  a day in long distance charges. Another contractor charged $305 over a four-
  day period or an average of $76 a day. Over a six-day period, a contractor
  charged $417 in long distance charges, an average of more than $69 a day.
  According to one of the hotels where these calls were made from, it charged a
  $4.51 connection fee for each call and approximately $4 a minute for long
  distance calls. Another hotel stated that it marked up long distance calls by 25
  to 30 percent. A calling card could be used for a $.80 per call connection fee
  and $.28 a minute for long distance calls. The President of MBELDEF stated
  that its employees had calling cards and agreed that it would have been
  reasonable to issue calling cards to their contractors as well.

- $2,149 in computer rental fees. One of MBELDEF’s consultants charged a
  $40 daily rental fee for use of his laptop computer (the total charge for these
  one day rentals was $1,640). An additional computer rental of $509 was
  incurred at the Orlando workshop. SBA had laptop computers, one of which
  should have been made available for MBELDEF’s use. Even if SBA could
  not provide use of a computer, SBA could have purchased one for less than
  the rental fees and still had the computer after completion of the
  cosponsorship. An SBA office purchased laptop computers in September
  1999 at a base price of $1,300 and $1,750 with items such as the LAN card, a
  modem, port replicator, and carrying case. According to this office, laptops
  purchased in 1998 would have been essentially the same price.

- $240 in Internet connection fees. A $20 daily Internet connection fee was
  charged for each day of training. On average, 2 two-day workshops were held
  each month, for an estimated monthly Internet connection fee of $80. An
  MBELDEF contractor informed the auditors that the Internet connection fee
  was charged to cover his monthly Internet connection fee. According to this
  contractor, his monthly Internet fee was $20 for unlimited usage.

- $383 in duplicate meal payments. MBELDEF consultants charged full per
  diem of $40 a day for breakfast, lunch and dinner during the days when
  breakfast and lunch were served at the workshops.

- $342 for upgraded hotel rooms. One individual stayed in a hotel room costing
  $267.90 per day while other individuals at the same site paid $153.90 per day.

- $333 in travel expenses. An MBELDEF contractor made a site visit to
  Orlando on New Years Eve, arriving on December 31 and leaving January 1.
  According to an MBELDEF contractor, this trip was taken to determine if
  construction at the hotel would be completed in time for the February Orlando
  workshop. MBELDEF did not make prior site visits to any of the other hotels
  used for the presentations.




                                   8
•     MBELDEF’s President acknowledged that it did not provide the amount of in-kind
      contribution it agreed to provide. Because the cosponsorship did not contain any
      penalties should MBELDEF not carry out the terms of the cosponsorship, SBA has
      questionable recourse against MBELDEF.

•     SBA could not determine the dollar value of the registration fees MBELDEF
      collected, even though MBELDEF was required to use these fees prior to receiving
      funds from SBA. An SBA official stated that SBA did not monitor or keep any
      records of the fees collected by MBELDEF, but relied on the information MBELDEF
      reported. This information may not be accurate. For example, an internal SBA e-
      mail correspondence stated that SBA collected $4,230 in registration fees at the
      Cleveland conference and forwarded the amount to MBELDEF. However,
      MBELDEF reported that only $760 in cash and checks were collected from the
      Cleveland conference. Also, there should have been credit card payments, but
      MBELDEF did not detail how much it collected in fees from credit cards from each
      site. Rather, it reported one lump sum total for credit card registration fees received
      from all the sites. SBA paid MBELDEF based on MBELDEF collecting only $760 in
      Cleveland.


                                  RECOMMENDATIONS

2A.      We recommend that the Associate Administrator for Business Initiatives
         incorporate safeguards, such as all provisions of applicable OMB Circulars, into
         cosponsorships where SBA disburses funds to a cosponsor. If OMB Circulars do
         not apply, we recommend that the following provisions be included in these
         cosponsorships:

         • a determination that the cosponsor is capable of completing its portion of the
           agreement;
         • a determination that the cosponsor has the financial resources within the
           organization to complete the agreement;
         • a determination that the government is paying a fair and reasonable price for
           what is being provided;
         • the cosponsorship agreement includes appropriate accountability requirements
           and related cost principles, particularly, a requirement that SBA will only pay
           expenses that are allocable, allowable and reasonable;
         • the cosponsorship agreement includes terms to deal with non-compliance by
           the cosponsor; and
         • the cosponsorship includes a provision for internal controls to ensure that fees
           collected can be properly accounted for.

2B.      We recommend that the Associate Administrator for Business Initiatives (AA/BI)
         incorporate the requirement that the program official responsible for managing the
         cosponsorship obtain appropriate training.



                                              9
SBA Management’s Comments

        Management officials generally agreed with recommendation 2A; but they
believed that the level of “due diligence” should depend upon the circumstances. They
agreed with recommendation 2B. They stated that: the safeguards placed in this
cosponsorship were reasonable based on what they knew; they believed that MBELDEF
could perform its responsibilities; they have not concluded that they lack recourse should
MBELDEF be found in breach; and they reviewed invoices for reasonableness and
disallowed some costs. Furthermore, they stated that there was no problem with a senior
manager recommending a specific entity for a cosponsorship and it was circumstances
other than MBELDEF’s own qualifications, which discouraged issuing a grant or
contract.

OIG Evaluation of Management’s Comments

        Regardless of what SBA knew or thought about MBELDEF, prior to disbursing
up to $900,000 of Federal funds, SBA should have implemented adequate safeguards,
such as those normally found in a contract, grant, or cooperative agreement, to ensure
these funds were safeguarded against waste and mismanagement. While SBA
management has asserted that reasonable safeguards were included in the cosponsorship,
they did not elaborate on what they were and how they protected SBA’s interests. The
numerous problems associated with this cosponsorship demonstrate that whatever
safeguards existed were inadequate.




                                            10
Finding 3: SBA Lacked Controls Over Assuring Proper Expenditure of
          Appropriated Funds

       During some of the conferences, as part of the agenda, luncheons and other food
were served to all attendees. In total, SBA and MBELDEF paid at least $213,815 for
food and refreshments. The relevant statute, 31 U.S.C. Section 1345, states:

       Except as specifically provided by law, an appropriation may not be used
       for travel, transportation, and subsistence expenses for a meeting. This
       section does not prohibit – (1) an agency from paying the expenses of an
       officer or employee of the United States Government carrying out an
       official duty; . . .

       The Comptroller General has applied this prohibition in cases where Government
agencies have used appropriated funds for non-government personnel to attend seminars
and conferences. SBA did not have controls to ensure that appropriated funds were
precluded from paying for food of non-government attendees. The cosponsorship
agreement provided for the collection of fees and the amount reported as collected was
$81,545. To ensure that appropriated funds were not spent improperly, SBA and
MBELDEF needed to ensure that fees collected exceeded the related food costs for non-
government participants. This did not occur.

        Further, when vendors were not getting paid by MBELDEF and invoices were
forwarded to the Office of Procurement and Grants Management (OPGM), OPGM
officials requested a legal opinion on whether appropriated funds could be used to pay for
food served to attendees of the SDB 12-City Program. [ FOIA Exemption 5




               ] OPGM, with a previous understanding that SBA could not pay for food,
refused to pay for food expenses. GC&MED paid for the food by either paying the
cosponsor who, in turn, paid the vendors, or by paying the vendors directly through a
government purchase card.


                                RECOMMENDATION

3A.    We recommend that the Associate Deputy Administrator of Government
       Contracting & Minority Enterprise Development determine the pro rata share of
       food costs for non-government attendees versus amount collected. If the amount
       collected does not cover the cost of food served to non-governmental employees,
       determine the remedies that SBA must take.



                                           11
SBA Management’s Comments

      Management officials stated that they needed more time to assess this finding and
make comments. They agreed with the recommendation.

OIG Evaluation of Management’s Comments

       This appears to be responsive.




                                          12
Finding 4: SBA Did Not Take Appropriate Action When Significant Problems
          Arose With the Cosponsorship Agreement

       SBA did not follow its own policies and procedures for dealing with performance
problems on cosponsorships. As a result, SBA did not take appropriate action when it
became clear that there were significant problems with completing the cosponsorship.

        Though it was apparent that there were problems with MBELDEF’s performance
on the cosponsorship, GC/MED did not elevate the problems to the AA/BI for
consideration. The cosponsorship SOP requires the responsible program official to
advise the AA/BI of any issues or concerns regarding a specific cosponsorship. Upon
being so notified, the AA/BI may request the Oversight Committee to consider the issues
or concerns. Problems documented during the cosponsorship were:

•   MBELDEF did not have adequate resources to provide the amount of personal
    services required as the in-kind contribution in the cosponsorship agreement without
    a severe impact on MBELDEF, according to MBELDEF’s President. MBELDEF’s
    President informed SBA of this situation five days after the signing of the
    cosponsorship agreement in a September 30, 1998, memorandum to the Acting
    Associate Administrator for Small Disadvantaged Business Certification & Eligibility
    (Acting AA/SDB) and the AA/BI. Though the President of MBELDEF requested a
    modification to the cosponsorship, SBA did not modify it. According to MBELDEF
    and SBA officials, the ADA for GC/MED told MBELDEF that they would work this
    out later, though no action was ever formally taken.

•   Before the completion of the program introduction and outreach tour, the Deputy
    Associate Deputy Administrator for Government Contracting & Minority Enterprise
    Development (DADA for GC/MED) concluded that it appeared that MBELDEF did
    not have the capabilities to fulfill its responsibilities and recommended canceling the
    cosponsorship agreement. A March 12, 1999, memorandum from the DADA for
    GC/MED to the ADA for GC/MED, with a copy to the Acting AA/SDB, detailed the
    problems with MBELDEF’s handling of the cosponsorship that caused him to come
    to those conclusions. These problems included average attendance for primary
    audience being 158 rather than the 400 that had been estimated, MBELDEF not
    developing a national database, MBELDEF not paying vendors, and MBELDEF not
    executing and providing oversight for a contract with a vendor for workshop logistics
    and related on-site services. At the time of this memo, the last 6 program
    introduction and outreach tour conferences still had not yet been conducted.

•   A March 26, 1999 memorandum from the President of MBELDEF to the Acting
    AA/SDB detailed significant problems MBELDEF was having completing its
    cosponsorship responsibilities. With 4 conferences left to complete, MBELDEF
    complained that they had no funds to go forward, stating that various vendors would
    not do the work without advance payment. MBELDEF complained that SBA was
    withholding an advance and not processing past invoices.




                                            13
       In practice, BI and the Oversight Committee have never used the cosponsorship
SOP provisions for elevating performance problems with cosponsorships. According to
the former AA/BI, the mechanism included in the cosponsorship SOP for the Oversight
Committee to consider the problems with the cosponsorship is an unused procedure. If
the Oversight Committee had reviewed this situation, they could have ensured that SBA
took more appropriate action. The Oversight Committee could have overruled the ADA
for GC/MED’s decision to keep working with MBELDEF despite the significant
problems, since the ADA for GC/MED reported to the Deputy Administrator, and the
Deputy Administrator was an Oversight Committee member.


                               RECOMMENDATION

4A.    We recommend that the Associate Administrator for Business Initiatives take the
       necessary steps to ensure compliance with the requirement in SOP 90 75 2 that
       the responsible program officials report cosponsorship performance problems to
       the Associate Administrator for Business Initiatives.

SBA Management’s Comments

        Management officials disagreed with the finding although they generally agreed
with the recommendation. Although the cosponsorship oversight committee was not
notified when problems arose, management officials responded that other senior SBA
staff was involved. They stated that they would clarify where the responsibility to
oversee cosponsorship performance problems should rest. Management officials also
disagreed that the only appropriate action was to terminate the cosponsorship
relationship.

OIG Evaluation of Management’s Comments

       Regarding their disagreement with the finding, the informal method that was used
by SBA management was not effective. In this instance, if the SOP had been followed,
the problems could have been resolved early in the process.

        Also, we did not state that the only appropriate action was to terminate the
cosponsorship relationship. We stated that neither the problems were elevated nor the
cosponsorship was canceled. To avoid confusion, we clarified the sentence and deleted
that portion of the statement from the final report.




                                          14
Finding 5: SBA Did Not Ensure MBELDEF Provided All Invoices

        While the terms of the cosponsorship required MBELDEF to provide SBA with
invoices to justify expenditures, SBA paid MBELDEF for some claimed expenses for
which MBELDEF did not provide invoices. Of the approved expenses totaling $728,156
($646,610 paid by SBA and $81,546 paid by MBELDEF from attendee fees), SBA did
not receive invoices for $132,949, or 18 percent of the total. SBA officials informally
exempted MBELDEF from submitting all invoices that were individually under $1,000.
These invoices under $1,000 totaled over $31,000. We were advised that the rationale
used to exclude invoices under $1,000 was that there were too many individual items
under $1,000 to review. An SBA official also approved payment and SBA paid
MBELDEF for individual expenses exceeding $1,000 without obtaining invoices. One
such expense was for over $77,000 (over 10 percent of the total expenses MBELDEF
claimed). As a result, SBA had no assurance that costs claimed were incurred or that
they related to the cosponsorship. A separate audit report is being issued that
recommends recovery of unjustified payments.


                                 RECOMMENDATION

5A.    We recommend that the Associate Deputy Administrator for Government
       Contracting & Minority Enterprise Development (GC/MED) take steps to ensure
       that GC/MED employees enforce the terms of cosponsorship agreements for
       which they are the responsible program official.

SBA Management’s Comments

        Management officials stated that the decision to exempt invoices below $1,000
was a well-intentioned consensus decision made for practical purposes. They believed
that any larger missing invoices were due to inadvertence, but they will look into the fact
that some of these larger invoices were not received. They understood that some of the
paid expenses were for MBELDEF salaries, so a typical third party invoice would not be
available. In the future, they stated that they will use employees that are more
experienced in reviewing and tracking expenditures to better control and account for
funds, and they will not exempt small value invoices without a written procedure cleared
by the OIG.

OIG Evaluation of Management’s Comments

         Management’s comments are responsive. The largest missing invoice, which was
for over $77,000 was not due to inadvertence. An SBA official noted that it was missing
and recommended payment with the stipulation that MBELDEF would submit the
invoice later. To date, MBELDEF has not submitted that invoice, though based on
MBELDEF’s accountant’s oral description of what the funds were for, we do not believe
that it is a justified expense. If the expenses were for MBELDEF salaries in excess of the




                                            15
in-kind contribution, internal MBELDEF documentation would be considered adequate
for payment.




                                        16
                                                                                                                         APPENDIX A


                                           AUDIT REPORT DISTRIBUTION

Recipient                                                                                          Number of Copies

Administrator ................................................................................................................ 1

Deputy Administrator ................................................................................................... 1

Deputy Associate Deputy Administrator for Government
Contracting & Minority Enterprise Development ........................................................ 1

Associate Administrator for Small Disadvantaged
Business Certification & Eligibility .............................................................................. 1

Chief Financial Officer ................................................................................................. 1
Attn.: Jeffrey Brown

General Counsel ............................................................................................................ 2

General Accounting Office ........................................................................................... 2
      Agency Comments to Audit

Received After Final Audit Report Issued
